PROOF OF SERVICE

I Fatmata Kamara do swear or declare that on this date, May 13th 2020, as required by the United States
Supreme Court. I have served the enclosed PETITION FOR A WRIT OF CERTIORARI on each party the
above proceeding to: Mr. Gurbir S. Grewal, Attorney General, State of New Jersey, Hughes Justice
Complex, P.O. Box 112, 25 Market Street, Trenton, New Jersey 08625-0112.

To: Office of: The Clerk, Supreme Court of the United States, Washington, D.C. 20543-0001

By depositing an envelope containing the above documents in the United States mail properly

Addressed to each of them and with a first-class postage prepaid by Petitioner/Pro Se or by delivery to a
third-party commercial for delivery within 3 calendar days.

The names and addresses are aforementioned above.

I declare under penalty of perjury that the foregoing is true and correct.

Executed on this 13th day of May 2020.

(Signature)

